                           SHELTERED WORKSHOP SERVICES PROVIDED

                               RESIDENTS OF INTRMEDIATE CARE

                            FACIUTIES FOR THE MENTALLY RETARDED


                                          National Program Inspection




         -: Si. ilV'CES"




          .l/tYd1a



OFFICE                     OF INSPECTOR             GENERAL
         OFFICE OF ANALYSIS AND INSPECTIONS


                                                                        January 1987

               Office of the Inspector General

The mission of the Office of the Inspector General    (OIG) is
to promote the efficiency, effectiveness and in tegri ty of
programs in the United States Department of Health and Human
Services (HHS). It does this by developing methods to
detect and prevent fraud, waste and abuse. Created by
statute in 1976, the Inspector General keeps both the

Secretary and the Congress fully and currently informed

about programs or management problems and recommends

correcti ve action. The OIG performs its mission by
conducting audi ts, investigations and inspections wi
approximately 1, 200 staff strategically located around the
country.

              Office of Analysis and Inspections

This report is produced by the Office of Analysis and
Inspections (OAI), one of the three major offices wi thin the
OIG.  The other two are the Office of Audi t and the Off ice
of Investigations. OAI conducts inspections which are
typically, short- term studies designed to determine program
effecti veness, efficiency and vulnerabili ty to fraud or
abus e .

                         This Report

Entitled " Sheltered  Workshop Services Provided Residents of
Intermediate Care Facilities for the Mentally Retarded
thi3 inspection was conducted to determine if Medicaid was
participating in the costs of subsidized work activities of
adul t residents of Intermediate Care Facili ties for the
Mentally Retarded.
The report was prepared by the Regional Inspector General,
Office of Analysis and Inspections, Region IX
Participating in thi3 project were the following people:

    Ronald Benoy, Program Analyst, Region IX, Seattle, WA

    Robert Grauman , Program Analyst , Region IX, Seattle, WA

, '
  .




                      SHELTERED WORKSHOP SERVICES PROVIDED

                         RESIDENTS OF INTERMEDIATE CARE

                      FACILITIES FOR THE MENTALLY RETARED





e ..





        RICHA P. KUSSEROW
        INSPECTOR GENERA                                  JANUARY 1987




        CONTROL #OAI-09-86-00048

,! '
,
. !
! '
  .




                                  TABLE OF CONTENTS


                                                                  PAGE
              EXECUTIVE SUMMARY

        II.   INTRODUCTION

       III.   FINDING



        IV.   RECOMMENDATION

              APPENDIX       TABLE SUMMIZING THE DOLLAR EFFECTS
                             OF THE REPORTED FINDING
              APPENDIX II: COMMENTS
i L




5 '"



(i




r'




t f.




tl




l ,
!
,
;( ;
   ,
   ;;





                                 EXECUTIVE SUMMARY


         The inspection showed that many States were claiming Federal
         Financial Participation (FFP) for the costs of subsidized
         work activities. Of the 47 States with sheltered workshop
         programs for adult residents of Intermediate Care Facilities
         for the Mentally Retarded (ICF /MRs), 23 claimed Medicaid
         reimbursement for the costs of the workshop services. We
         estimate this resulted in Medicaid overpayments totaling $27
         million during FY  1984.  The remaining 24 States did not
         seek Medicaid reimbursement for the estimated $68 million in
         shel tered workshop costs they incurred during FY 1984. We
         did not make any recommendations for financial adjustment
         since this report pertained to a period prior to a
         clarification by the Department.

         The confusion over whether or not to claim FFP for the costs
         of sheltered workshops can be attributed to a lack of
         clari ty in the Health Care Financing Administration'
         (HCFA' s) instructions defining what is meant by the term
          vocational activities.     The need for these guidelines is
         critical since the co ts of " vocational activities" provided
         adul t residents of ICF /MRs are specifically excluded from
         Medicaid reimbursement by 42 CFR 441. 13 (b) . To correct this

         problem, we recommended HCFA issue guidelines specifically

         disallowing cost for sheltered workshops.


         HCFA concurred with our recommendation and published a

         policy issuance in the State Medicaid Manual clarifying the

         defini tion of vocational training. The instruction excludes

         payment for most sheltered workshop care and should ensure

         the problem identified during the inspection does not

         reoccur.




l r



L,




i 1





L .\





t ,

'j. ;'..

g




                                  II.   INTRODUCTION


            The inspection was conducted because information indicated

            many States were claiming FFP under the Medicaid program for

            the costs of sheltered workshop services provided residents

            of ICF/MRs.


            The Medicaid program participates in the    costs' associated
            wi th the care of residents of ICF /MRs , if the residents are
            receiving active treatment. According to 42 CFR 435. 1009,
            acti ve treatment requires each resident to have an indi vi­
            dual written plan of care. The plan must be designed to

            help the individual function at the greatest physical,
            intellectual, social or vocational level he can presently or
            potentially achieve. Services provided under the plan , as
            defined by 42 CFR 442. 401, must be habilitative and aid the
            intellectual, sensorimotor and emotional development of the
            resident. It is important to note that habili tati ve
            services under this defini tion would be limi ted to
            activi ties for the development of skills which the

            indi vidual needs to achieve maximum independence. 42    CFR

            441. 13(b) further states that payments to ICF/MRs may   not

            incl ude reimbursement for vocational training.

            To address our concerns, the review focused on the following

            objecti ves:


                Determine which States have ICF/MR programs that include
                shel tered workshop services and how these services are
                funded.
                Ascertain the extent to which the Medicaid program has

                participated in the costs of sheltered workshops.

                Determine if HCFA guidelines covering sheltered workshop

                services provided ICF/MR residents are adequate.

            The inspection was conducted nationwide because of the
            significant amount of money being directed towards providing
            vocational opportuni ties to residents of ICF /MRs. During
            the period October 1, 1983 through September 30, 1984, we
            estimated that 47 States spent over $122 million for
            shel tered workshop programs. In addition , the complexi ty of
            the issues addressed by the inspection warranted pursuing

            the topic from a national rather than a local perspective.


            To accomplish the objectives of the inspection , we first
            contacted each State Medicaid agency to determine if
            vocational services were provided residents of ICF /MRs and
            whether FFP was claimed for the costs of the services. Our
            ini tial telephone contacts revealed that there was a total




i :0

!,
,
",
 ;
 ,,-
   ",
    ",
     ~




         lack of consistency among States in defining " vocational
         training "for Medicaid reimbursement purposes. The only
         service that a significant number of states would agree
         constituted vocational training was subsidized work provided
         in a sheltered workshop type environment.

         We recontacted each State that had a sheltered workshop

         program to ascertain the FFP amounts claimed during FY 1984.
         The data obtained from two States was then verified. On-

         si te visi ts were also made to several sheltered workshops as
         well as State and local organizations involved in various

         phases of the workshop programs. The on-site visits were
         supplemented by discussions wi th people concerned wi
         securing and delivering services to the developmentally

         disabled. We also contacted HCFA to obtain a definition of

          vocational training " and its policies and guidelines on the
 1 ­




         subject.




i l





t .L





r r





r '


it E:




1r




i. ­
.
;
,,
 .,.
   '.
    -




                                   III.   FINDING

        Medicaid Participation in Sheltered Workshop Acti   vi ties
        Our discussions with personnel from the 47 States that
        provide sheltered workshop services to adult residents of
        ICF/MRs identified 23 that claimed FFP for the costs of
        these services during FY 1984. The remaining 24 States did
        not claim FFP because they believed such acti vi ties were
        vocational in nature and the costs , therefore, unallowable
        for Medicaid reimbursement. In our discussions, we def ined
        a sheltered workshop as a sheltered environment for
        producti ve employment that pays its workers training fees
        based on production or has received an appropriate Wage and
        Hour Certificate from the Department of Labor. The
        certificate recognizes the employer/employee relationship of
        the workshop and allows the payment of subminimum wages to
        workers. A sheltered workshop would also provide employment
        support services such     as:
                                    training required in a job
        si tuation to develop skills needed for new tasks and
        enhanced versatil i ty;counseling at the job si te; and
        assistance in maintaining employment.


        Except in rare instances , the sheltered workshop represents

        the highest vocational level an ICF/MR resident can achieve.
        The workshop services, therefore, must be considered
        vocational training rather than habili tati ve and the costs
        of the services disallowed for FFP.
        Over the last several years , States have changed their

        treatment emphasis for adult residents from tradi tional
        social and living skills development to employment- oriented
        training.   This change appears to have been encouraged by
        some of the HCFA personnel involved in the certification of
        ICF/MRs. States also receive requests from various
        citizens ' groups involved with the developmentally disabled
f r	
        to increase the vocational opportuni ties available to ICF/MR

        residents as a way to improve the individuals' quality of

i ;

        life.  As previously mentioned, 47 States responded to the
        suggestions by implementing sheltered workshop programs.
        Those States that recognized that workshop services did not

        qualify for FFP, arranged for State funding of the programs.
        We estimate this is costing the 24 States a total of $68
        million a year. The remaining 23 States chose the posi tion
        that if HCFA suggested they provide sheltered workshop
        services, Medicaid should participate in the costs of those
        services.  This position was continually reinforced during
e: :;
        our conversations wi th State personnel.
        Based on follow-up contacts wi theach of the 23 States that
        claimed Medicaid reimbursement for sheltered workshop costs
-i

1;

I. 1




t :

,
.
j- ,
   .

   -




         we estimate that $54 million in workshop costs were claimed
         during FY 1984. This translates into a Medicaid overpayment
         of $27 million , assuming an FFP rate of 50 percent. The $54
         million estimate was derived by first determining the ratio

         of adult sheltered workshop costs to total ICF /MR costs

         claimed for the eight States that provided our office with

         estimates of the workshop costs claimed during our review

         period. The remaining 15 States were ei ther unable or
         unwilling to furnish this information. That ratio obtained

         was then applied to the total ICF/MR costs claimed by the

         23 States.
         The primary cause of the problems identified in our
         inspection was the lack of specific HCFA guidelines or
         policy interpretations which provide a precise defini tion of
         the term " vocational training.   In absence of these
         guidelines, both the State agencies and HCFA regional 

         offices made independent and frequently inconsistent pOlicy

         interpretations. As a result , 23 States received FFP for

         the costs incurred in their workshOp programs and 24 States

         did not.





L ­




f c



\L ,.




i 1





i 1;





i; ;.

, .
  ,




                            IV.   RECOMMENDATION



        We recommend HCFA issue guidelines clarifying the defini tion
        of " vocational training " for Medicaid reimbursement purposes
        to specifically disallow costs of subsidized work

        acti vi ties.




oi



f :;





1 :'





i. ,
.
,
j, .
   ,
   .

   '                                           ------
                                                        APPENDIX I

                    TABLE SUMMARIZING THE DOLLAR

                   EFFECTS OF THE REPORTED FINDING



        State                              Estimated Overpayment

                                                      765, 026

                                                      505 556

                                                      492, 638

                                                      707, 707

                                                      936, 043

                                                      493, 136

                                                      857, 341

                                                      821, 795

                                                      567, 532

                                                      990, 081

L ­

                                                      187, 260

                                                      168, 745

                                                      394, 743

                                                      354, 185

                                                      540, 927

                                                      917, 205

                                                      709, 281

                                                      394, 080

                                                      165, 902


1 r

                                                      310, 678

                                                      530, 638

                                                      100, 312

l i


                                                      162, 640

                TOTAL                          $27, 073, 451

; c

j
,,
 ;. .

    !
    '
    "
    ,
    ..                                           - -


                                                                                                APPENDIX I I
         ..."'C"
                                                                                             Health Care
                       DEPART1'\ENT Of HEALTH & HUMAN SERVICES                               Financing Administration



                         CT   21         10                                                 Memorandum
          Date
                         illa L. Roper, M.
                                   1-.



          F,om

                   1'dmin"trator
          SUb" t
010
             Jec         Draft Report - Sheltered Workshop Services Provided Residents of Intermediate
                       Care Facilities for the Mentaly Retarded (P-09-86-o0048)

                       The Inspector General
r r
                   Office of the Secretary

                       We have reviewed the drft report that recommends we isue guidelines clarifying
                       the definition of vocational traiing for Medicaid puroses to disalow specificaly
                       the costs of subsidized work activities. In September 1986, we published a PQlicy
                       issuance in the State " Medicaid Manual clarifyin the definition of vocatiOnal training.
                       The intruction excludes  payment for most sheltered workshop care, but notes that,
                       in some cases, further review is needed to determine if the care could be covered
                       under Medicaid. Our intruction was developed in    concert with a Techncal Advisory
                       Grup of State Medicd representatives
                       This instruction wil enable the OIG   and HCF A to conduct audits for purposes of
                       disowing inappropriate payments. It wil      alo help the States which have claimed
                       not to know what services are excluded, to know what not to clim as eligible for
                       Federal financial participation.
r .
                   Than you for the opportunity to review this drdt report.
1 .





 - f-




i 1




j r





r .



t r





r f





r'
